           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


          SINGLE AUDIT OF
       THE STATE OF NEW YORK
        FOR THE FISCAL YEAR
        ENDED MARCH 31, 2007

     March 2009    A-77-09-00008




 MANAGEMENT
ADVISORY REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                    SOCIAL SECURITY
MEMORANDUM

Date:   March 17, 2009                                                           Refer To:

To:     Candace Skurnik
        Director
        Audit Management and Liaison Staff

From:   Inspector General

Subject: Management Advisory Report: Single Audit of the State of New York for the Fiscal Year
        Ended March 31, 2007 (A-77-09-00008)


        This report presents the Social Security Administration’s (SSA) portion of the single
        audit of the State of New York for the fiscal year ended March 31, 2007. Our objective
        was to report internal control weaknesses, noncompliance issues, and unallowable
        costs identified in the single audit to SSA for resolution action.

        The accounting firm of Toski, Schaefer & Company, P.C. performed the audit. The
        Department of Health and Human Services (HHS) desk review concluded that the audit
        met Federal requirements. In reporting the results of the single audit, we relied entirely
        on the internal control and compliance work performed by the accounting firm of Toski,
        Schaefer & Company, P.C., and the reviews performed by HHS. We conducted our
        review in accordance with the Quality Standards for Inspections issued by the
        President’s Council on Integrity and Efficiency.

        For single audit purposes, the Office of Management and Budget (OMB) assigns
        Federal programs a Catalog of Federal Domestic Assistance (CFDA) number. SSA’s
        Disability Insurance (DI) and Supplemental Security Income (SSI) programs are
        identified by CFDA number 96. SSA is responsible for resolving single audit findings
        reported under this CFDA number.

        The New York Disability Determination Services (DDS) performs disability
        determinations under SSA’s DI and SSI programs in accordance with Federal
        regulations. The New York DDS is reimbursed for 100 percent of allowable costs. The
        Office of Temporary and Disability Assistance (OTDA) is the New York DDS’ parent
        agency.
Page 2 – Candace Skurnik


The single audit reported that:

   1. OTDA had insufficient standards for the documentation of critical systems
      applications (Attachment, Pages 1 and 2). The corrective action plan indicates
      OTDA has undertaken several improvements including developing written
      descriptions of documentation standards (Attachment, Pages 3 through 6).

   2. Software developers inappropriately had the ability to update software in the
      production environment (Attachment, Pages 7 and 8). The corrective action plan
      indicates OTDA has a process to control software developer access to the
      production environment (Attachment, Pages 9 through 11).

   3. OTDA did not have a plan in place for periodic testing of systems data recovery
      in the event of an interruption, and it had not performed a test to ensure a
      complete and error-free recovery of systems data (Attachment, Pages 12 and
      13). The corrective action plan indicates that recovery testing was successfully
      performed and plans are in place to periodically run similar recovery testing in the
      future (Attachment, Pages 14 through 15).

   4. Contracts reimbursed with Federal funds did not identify the required Federal
      award information (Attachment, Pages 16 and 17). The corrective action plan
      indicates the required Federal award information will be included in all future
      contracts (Attachment, Pages 18 and 19).

   5. Indirect costs were charged to various Federal agencies, including SSA, based
      on cost allocation plan (CAP) methodologies that were pending approval by HHS’
      Division of Cost Allocation (DCA) (Attachment, Pages 20 and 21). The corrective
      action plan correctly reports that indirect costs can be charged based on
      allocation methodologies that have been submitted to DCA for approval
      (Attachment, Pages 22 and 23).

We recommend that SSA:

   1. Verify OTDA policies and procedures are adequate to ensure the New York DDS’
      critical system applications are sufficiently documented.

   2. Ensure that OTDA policies and procedures prevent software developer access to
      the production environment.

   3. Determine whether OTDA developed adequate procedures for performing
      periodic data recovery testing of the systems used by the New York DDS.

   4. Verify that the required Federal award information will be included in all contracts
      related to the New York DDS’s activities.
Page 3 – Candace Skurnik


   5. Upon DCA’s approval of the CAP, work with OTDA to ensure the indirect costs
      charged to the New York DDS were in accordance with CAP’s approved
      methodologies.

Please send copies of the final Audit Clearance Document to Ken Bennett. If you have
questions contact Ken Bennett at (816) 221-0315 extension 1558.



                                             S
                                             Patrick P. O’Carroll, Jr.
 Attachment
Page 1 of 23
 Attachment
Page 2 of 23
 Attachment
Page 3 of 23
 Attachment
Page 4 of 23
 Attachment
Page 5 of 23
 Attachment
Page 6 of 23
 Attachment
Page 7 of 23
 Attachment
Page 8 of 23
 Attachment
Page 9 of 23
  Attachment
Page 10 of 23
  Attachment
Page 11 of 23
  Attachment
Page 12 of 23
  Attachment
Page 13 of 23
  Attachment
Page 14 of 23
  Attachment
Page 15 of 23
  Attachment
Page 16 of 23
  Attachment
Page 17 of 23
  Attachment
Page 18 of 23
  Attachment
Page 19 of 23
  Attachment
Page 20 of 23
  Attachment
Page 21 of 23
  Attachment
Page 22 of 23
  Attachment
Page 23 of 23
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
